U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                               Review of ATF’s 

                          Federal Firearms Licensee 

                             Inspection Program 

                                      April 2013




                                      I-2013-005

                               EXECUTIVE DIGEST 



INTRODUCTION

      The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
enforces federal firearms laws, in part, by issuing federal firearms
licenses, by conducting regulatory inspections of the more than 123,500
Federal Firearms Licensees (FFL), and by conducting criminal
investigations of FFL violations. 1

       In a July 2004 review, the Office of the Inspector General (OIG)
concluded that ATF’s Inspection Program was not fully effective in
ensuring that FFLs comply with federal firearms laws because
inspections were infrequent and of inconsistent quality, and follow-up
inspections and adverse actions had been sporadic. 2 Also, ATF did not
conduct in-person inspections on all applicants before licensing them to
sell guns.

      In this follow-up of the OIG’s 2004 review, we assess ATF’s FFL
Inspection Program and its ability to effectively enforce federal firearms
laws.

RESULTS IN BRIEF

       We found that, since 2004, ATF has made a series of changes and
improvements to its inspection processes and increased outreach
activities to the firearms industry, including by:

    •	 standardizing policies and procedures for qualification and 

       compliance inspections; 

    •	 instituting a requirement for gathering pre-inspection intelligence
       for qualification and compliance inspections;
    •	 reducing the number of qualification inspections done by
       telephone instead of in person, from 597 in fiscal year (FY) 2005 to
       21 in FY 2011;

       1  The Gun Control Act of 1968 (18 U.S.C. § 921 et seq.) requires individuals or a
company engaged in the firearms business to have a license and establishes legal
restrictions on who can possess firearms.

       2 U.S. Department of Justice Office of the Inspector General, Inspections of
Firearms Dealers by the Bureau of Alcohol, Tobacco, Firearms and Explosives, Evaluation
and Inspections Report I-2004-005, July 2004.


U.S. Department of Justice                                                                  i
Office of the Inspector General
Evaluation and Inspections Division
    •	 implementing a field division discretionary investigative initiative
       to prioritize compliance inspections of FFLs that have been
       identified by ATF as high risk; 3 and
    •	 establishing outreach goals for the field divisions and working
       with advocacy groups to improve education efforts.

       However, we also found several areas where ATF needed to improve
its performance, which we briefly discuss below.

ATF did not meet its goal of inspecting all FFLs on a cyclical basis,
resulting in over 58 percent of FFLs not being inspected within 5 years.

      We found that ATF still had not met its goal of inspecting all FFLs
on a 3- or 5-year cyclical basis. Between FY 2007 and FY 2012, over
58 percent of FFLs (73,204 out of 125,481) had not been inspected for
5 years. As a result, non-compliant FFLs go undetected by ATF for many
years. One reason for this was insufficient investigator resources. In
FY 2010, ATF had 940,500 available investigator hours to complete all
types of inspections, but based on data from ATF indicating how long it
took (on average) for investigators to complete inspections, ATF would
have needed 1,140,139 investigator hours to complete 5-year cyclical
compliance inspections alone, a shortfall of 199,639 hours. 4 We found
that other competing priorities, such as federally mandated Federal
Explosives Licensee inspections, have left ATF unable to meet this
important goal.

ATF did not track whether high-risk FFL inspections met annual
operating plan priorities.

      We found that ATF did not track whether the FFL inspections it
conducts met the high-risk priority it laid out each fiscal year in its
annual operating plan. No fields or codes exist within the inspections
case management system that can be used to identify which opened
inspections corresponded to the high-risk discretionary initiative in the
operating plan. While ATF implemented a discretionary initiative in its
operating plan that includes compliance inspections of high-risk FFLs,
ATF does not know, and we were unable to determine, whether ATF had

       3  ATF field divisions may classify an FFL as “high risk” because of indicators
such as a high number of crime guns traced to a purchase from the licensee, numerous
multiple sales or multiple sales of guns used in crimes, thefts or losses of firearms,
location in a high-crime or border area, and tips from law enforcement.

       4  See Appendix IV for the number of investigators and FFLs in each of ATF’s
25 field divisions, the investigator hours needed, and the available investigator hours.


U.S. Department of Justice                                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
in fact given priority to high-risk FFL inspections, how many high-risk
FFLs were inspected, or how long high-risk FFLs had gone between
inspections.

ATF did not ensure that administrative actions were not unduly
prolonged after cases moved to Division Counsels for review.

       We found that ATF revised its administrative action policy to assist
field division personnel in their effort to ensure that consistent and
appropriate determinations are made regarding whether to revoke a
license or take some other action when an FFL is found to have violated
federal firearms laws. The revised policy allows more non-compliant
FFLs the opportunity to make changes to their operations to become
compliant. Nonetheless, we found that in those situations where ATF
concluded that revocation for a non-compliant FFL was the appropriate
remedy, the administrative action process remained lengthy (sometimes
lasting over 2 years). We determined that the time ATF takes to process
revocations is prolonged after recommendations for revocation are sent
for Division Counsel review. According to ATF, factors that prolong the
review include revocations that are not pursued when law enforcement
actions are initiated against the licensee during Division Counsel review
and the Division Counsels’ need to get additional information in some
instances to support revocations. ATF staff also stated that insufficient
staffing was a reason that the Division Counsel review was a challenge.
Because FFLs are permitted to sell firearms during the revocation
process, it is imperative that ATF process revocations with all appropriate
speed, while at the same time taking into account the need for careful
review of the proposed decision.

CONCLUSION AND RECOMMENDATIONS

       Since 2004, ATF has made a series of changes to its Inspection
Program that have resulted in an improved program but, because of
certain weaknesses we identified, additional actions are needed for ATF
to fully achieve its goal of keeping communities safe and secure by
detecting and preventing the sale of firearms to individuals who are
prohibited from possessing them. We made four recommendations to
ATF to ensure that ATF can meet its operating plan requirement to
conduct a follow-up compliance inspection within 12 months of a
telephone qualification inspection, can meet its goal to perform FFL
cyclical compliance inspections in a timely fashion, can adequately track
when high-risk inspections are opened to meet operating plan priorities,
and can process revocations in an appropriately prompt manner.



U.S. Department of Justice                                                iii
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS 



 BACKGROUND ................................................................................. 1


 SCOPE AND METHODOLOGY OF THE OIG REVIEW....................... 11


 RESULTS OF THE REVIEW............................................................. 13


 CONCLUSION AND RECOMMENDATIONS ...................................... 35


 APPENDIX I: FIELD OPERATIONS AND FIELD DIVISION 

   ORGANIZATION CHART ............................................................. 37


 APPENDIX II: PRE-INSPECTION INTELLIGENCE COLLECTION 

   STEPS ........................................................................................ 38


 APPENDIX III: FY 2012 INDUSTRY OPERATIONS INVESTIGATOR 

   STAFF ESTIMATES, FOR ALL INSPECTIONS, RANKED BY
   SIZE OF SHORTAGE .................................................................. 39


 APPENDIX IV: WORK HOURS AVAILABLE AND NEEDED FOR 

   FFL 5-YEAR CYCLICAL COMPLIANCE INSPECTIONS
   IN FY 2010 ................................................................................. 40


 APPENDIX V: ATF RESPONSE TO DRAFT REPORT ........................ 41


 APPENDIX VI: OIG ANALYSIS OF ATF RESPONSE ......................... 44





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                                    BACKGROUND 



Introduction

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
enforces federal firearms laws, in part, by issuing firearms licenses and
overseeing a program that conducts regulatory inspections of Federal
Firearms Licensees (FFL), of which there were 123,587 at the end of
fiscal year (FY) 2011, according to ATF. The Inspection Program’s goals
are to ensure that only qualified individuals receive licenses to sell guns,
to educate FFLs about federal firearms laws, and to increase “compliance
with firearms laws in order to prevent the transfer of firearms to those
prohibited from having them.” 5 ATF’s regulatory inspections seek to
ensure that FFLs follow federal firearms laws that ban sales to prohibited
persons and require inventory and sales to be tracked. In FY 2011, ATF
performed 10,416 inspections of FFLs, and 62 percent (6,429) of the
FFLs were found to be compliant with federal firearms laws. Figure 1
shows the percentage of FFLs from FY 2004 to FY 2011 found to be in
compliance with federal firearms laws following an ATF inspection.

                                 Figure 1: Percentage of FFLs in Compliance, 

                                          FY 2004 through FY 2011 

                               100%

                               90%

                               80%
           Percent Compliant




                               70%                                         63%    62%    62%
                                                                    59%
                               60%                  53%     54%
                                      51%
                                             47%
                               50%

                               40%

                               30%

                               20%

                               10%

                                0%
                                      2004   2005   2006    2007    2008   2009   2010   2011
                                                             Fiscal Year


                                Source: ATF N-Spect data.



       5 U.S. Department of Justice, Bureau of Alcohol, Tobacco, Firearms and
Explosives, Strategic Plan: Fiscal Years 2004–2009, 5.


U.S. Department of Justice                                                                      1
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, between 2004 and 2011, FFLs had 174,679 firearms
stolen or lost from their inventories, according to ATF. 6 Table 1 shows
the number of stolen and lost firearms by type between 2004 and 2011.

          Table 1: FFL Thefts and Losses from 2004 through 2011
                                                                                Total Firearms
Firearm
            2004     2005     2006     2007    2008    2009    2010     2011    Stolen/Lost by
Types
                                                                                     Type
Handguns     8,257   13,016   10,165   11,905 13,364   7,528   10,279   8,449           82,963
Long Guns    7,118   11,666   11,030   14,286 12,136   8,478   10,470   8,096           83,280
Others        222      885      372    1,157   1,143     893    1,880   1,884            8,436
Total       15,597 25,567 21,567 27,348 26,643 16,899 22,629 18,429                   174,679
  Note: Handguns consist of semiautomatic pistols, revolvers, and derringers. Long
  guns consist of shotguns and rifles. All other firearms are accounted for in the
  “other” category.
  Source: ATF data as of February 7, 2013.

      This report is a follow-up to a 2004 Office of the Inspector General
(OIG) review that focused on how ATF selected FFLs for inspection, the
frequency and quality of ATF’s inspections, and the enforcement actions
ATF took against FFLs that violated federal firearms laws. 7 The previous
review found that ATF’s inspections were infrequent and of inconsistent
quality. In addition, the follow-up inspections and adverse actions ATF
took against FFLs were sporadic. 8 The OIG made nine recommendations
to help improve the program, including developing a standard inspection
process, revising staffing, improving the comprehensiveness of crime gun
tracing by law enforcement agencies, and creating a tracking system to
monitor the progress and timeliness of FFL denials and revocations.
These recommendations have been implemented by ATF since our earlier
review.

      In this follow-up report, we discuss the changes ATF made to its
FFL Inspection Program since 2004, the shortfalls in meeting its goals for

        6 FFLs must report to ATF each missing, lost, or stolen firearm within 48 hours

of discovery. In addition, the FFL must report the firearm theft or loss to the
appropriate local law enforcement agency.

       7 U.S. Department of Justice Office of the Inspector General, Inspections of

Firearms Dealers by the Bureau of Alcohol, Tobacco, Firearms and Explosives, Evaluation
and Inspections Report I-2004-005 (July 2004).

        8 ATF Order 5370.1A changed the term “adverse action” to “administrative

action” in 2009. Administrative actions include warning letters, warning conferences,
license revocations, and denials of license renewal.


U.S. Department of Justice                                                                 2
Office of the Inspector General
Evaluation and Inspections Division
the program, the changes ATF made to its administrative action process
since 2004, and the problems still remaining in that process. In the
remainder of this background section, we describe firearms licensing
requirements and the processes ATF has used to try to ensure those
requirements were met.

Federal Firearms Licensing Requirements and Operations

       In the Gun Control Act of 1968, Congress required individuals and
companies engaged in the firearms business to be licensed and
established legal restrictions on who could possess firearms. 9 An
applicant for a federal firearms license to make or sell firearms must be
at least 21 years old, not be prohibited from having a firearm, and must
notify the “chief law enforcement office of the locality in which the
premises are located” that the applicant intends to apply for a license. 10
The applicant must provide a photograph, fingerprints, the application
fee, and a statement certifying that their business is in compliance with
applicable laws.

       Applications for federal firearms licenses are submitted to ATF’s
Federal Firearms Licensing Center, which forwards them to field
divisions that assign investigators from Industry Operations to conduct
qualification inspections of the applicants. The qualification inspection
includes an in-person interview with the applicant to discuss federal,
state, and local requirements, as well as to ensure that all information on
the application is current and correct. Industry Operations submits its
inspection report to the Federal Firearms Licensing Center, including a
recommendation as to whether the license should be issued or denied,
and the Federal Firearms Licensing Center then determines the
applicant’s eligibility and issues a license or notifies the applicant of its
denial. 11

      FFLs are required to verify that potential customers are not
prohibited from possessing a firearm and are residents of the state in
which the FFL is located. In the Brady Handgun Violence Prevention Act

       9    The Gun Control Act of 1968 was codified at 18 U.S.C. 44.

       10   Under the Gun Control Act, firearms possession is prohibited for certain
individuals, such as those with a felony conviction, illegal aliens and aliens lawfully
admitted under non-immigrant visas, those with a prior domestic assault conviction,
fugitives from justice, or unlawful users of controlled substances.

       11  Denials can be based on reasons that include a failure to comply with state
or local law (such as zoning ordinances), evidence of previous willful violations of the
Gun Control Act, or falsification of an application.


U.S. Department of Justice                                                                 3
Office of the Inspector General
Evaluation and Inspections Division
of 1993, Congress required FFLs to contact the Federal Bureau of
Investigation (FBI) or a state agency (if applicable) to request that the
National Instant Criminal Background Check System (NICS) be queried
to confirm that potential customers are not prohibited from purchasing
firearms. 12 Customers purchasing firearms must complete a Firearms
Transaction Record (Form 4473), which asks for information about the
purchaser and the firearm purchased. 13 FFLs are required to retain
these forms and maintain an Acquisition and Disposition Book (A&D
Book) that logs all firearms acquired and sold. FFLs must report to ATF
sales of multiple handguns to the same purchaser, if purchased within
5 consecutive business days. 14

        While the A&D Book is referred to as a “bound book,” FFLs have
the option to use an alternative method, such as a computerized A&D
Book system. FFLs need the approval of ATF to use such an alternative
system, and the alternative system must meet the regulatory
requirement that it record specified pertinent information in a permanent
form. ATF has determined that the use of a computerized system
satisfies the standard of permanency and is substantially equivalent to
paper records. Additionally, the system must be able to retain any
correction of errors as an entirely new entry, without deleting or
modifying the original entry, so as to allow an audit trail for ATF
investigators. 15

ATF’s FFL Inspection Program

Inspection Staffing Structure

       ATF implements its FFL Inspection Program through Industry
Operations, a regulatory enforcement section under the Office of Field
Operations, which also houses the Criminal Enforcement section. At
ATF headquarters, the Deputy Assistant Director of Industry Operations,
who reports to the Assistant Director for Field Operations, is responsible
for directing and coordinating both the Federal Explosives and FFL


       12   18 U.S.C. § 922(s).

       13   This form is at http://www.atf.gov/forms/download/atf-f-4473-1.pdf.

        14 18 U.S.C. § 923(g). Additionally, ATF requires FFLs in Arizona, California,

New Mexico, and Texas to submit records concerning the multiple sales of semi-
automatic rifles capable of accepting a detachable magazine with a caliber greater than
.22 to the same unlicensed person.

       15   27 C.F.R. Part 478, Subpart H, and ATF Ruling 2008-2.


U.S. Department of Justice                                                            4
Office of the Inspector General
Evaluation and Inspections Division
Inspection Programs at the field division and the national level. (See
Appendix I for an organization chart.)

       Each of ATF’s 25 field divisions is headed by a Special Agent in
Charge, who oversees a Director of Industry Operations (DIO). Under the
DIO’s supervision, Area Supervisors manage local units of the field
division called field offices. Field offices are staffed by Industry
Operations investigators who are responsible for conducting firearms
inspections, legally mandated explosives dealer inspections, and
outreach to the firearms industry. ATF reported that at the beginning of
FY 2011, it had 624 Industry Operations investigators assigned to its
25 field divisions. These investigators do not have the authority to arrest
individuals, do not carry firearms, and do not conduct criminal or
undercover investigations. Each field division also has at least one
Division Counsel who is consulted in assessing administrative actions
that deal with revocations, alternatives to revocations, and denials of
license renewal. The Division Counsels report to the Deputy Chief
Counsel for the Field at headquarters, who, in turn, reports to ATF’s
Chief Counsel.

FFL Inspection Types

      As part of the FFL Inspection Program, ATF generally conducts two
types of inspections:

   •	 Qualification inspections – Industry Operations investigators
      conduct qualification inspections (previously known as application
      inspections) to determine whether applicants qualify for federal
      firearms licenses, meet all state and local “conduct of business”
      requirements, and are educated about FFL responsibilities under
      federal firearms laws. Since 2006, investigators have been
      required to conduct qualification inspections in person or, if that
      cannot be done, to conduct an in-person compliance inspection
      (described below) within 1 year of the telephone qualification
      inspection. In 2010, ATF added further requirements for
      qualification inspections, including having the investigator notify
      the Deputy Assistant Director for Industry Operations whenever a
      qualification inspection has to be conducted over the telephone. 16




       16  In addition, the ATF Field Operations Operating Plan for FY 2011 provides
that the follow-up report after an onsite compliance inspection must document why an
onsite qualification inspection was not previously conducted.


U.S. Department of Justice                                                         5
Office of the Inspector General
Evaluation and Inspections Division
       The OIG’s 2004 review found that qualification inspections were
       often conducted by telephone. 17

   •	 Compliance inspections – Industry Operations investigators
      conduct compliance inspections to examine whether an FFL is in
      compliance with federal firearms laws and to verify that the FFL is
      accurately maintaining the required forms and an A&D Book. 18
      ATF sets a 3- or 5-year compliance inspection cycle for FFLs
      depending on whether an FFL is in a “source” or “non-source”
      state. ATF identifies a state as a “source” state or a “non-source”
      state by the number of firearms sold or recovered at crime scenes
      as determined by trace requests submitted to the National Tracing
      Center. “Source” states are those where crime guns are first
      purchased, and “non-source” states are ones to which crime guns
      have traveled. Compliance inspections also can be initiated based
      on: (1) a set of criteria that identifies the FFL as high risk or a
      priority or (2) a special request from ATF headquarters units or the
      ATF Criminal Enforcement section. 19 Except in limited
      circumstances, ATF is prohibited by law from inspecting an FFL
      more than once a year. 20

       If a compliance inspection reveals violations that can be corrected
with education and improved FFL record keeping, Industry Operations
schedules a recall inspection. Recall inspections are follow-up
compliance inspections that by federal regulation may be conducted no
earlier than 1 year after the initiation of the deficient compliance
inspection, unless an FFL agrees to an earlier inspection. Investigators
can either conduct a limited scope recall inspection with a focus on the
areas cited in the previous compliance inspection or expand the
inspection to a full scope recall inspection to determine if the FFL

       17 U.S. Department of Justice Office of the Inspector General, Inspections of
Firearms Dealers by the Bureau of Alcohol, Tobacco, Firearms and Explosives, Evaluation
and Inspections Report I-2004-005 (July 2004).

       18  Once a compliance inspection is completed, ATF determines if the FFL is “in
compliance,” “not in compliance,” or “at risk.” “In compliance” means that an FFL has
no violations or minimal violations that are outlined in a Report of Violations and do not
require administrative action. “Not in compliance” means that an FFL has violations
that require an administrative action. In FY 2010, ATF added the “at risk” category,
which means an FFL may face administrative action if it continues to be non-compliant.

       19 The criteria ATF uses to determine if an FFL is high risk are discussed in the
Inspection Priorities section.

       20   Firearms Owners Protection Act of 1986, 18 U.S.C. § 923(g).


U.S. Department of Justice                                                              6
Office of the Inspector General
Evaluation and Inspections Division
improved its compliance or remains non-compliant with federal firearms
laws.

FFL Administrative Action Process

      When violations are found during a compliance inspection, the
Industry Operations investigators can issue a report of violations or
recommend administrative action. A report of violations is used for all
infractions and describes the violation cited and requires a corrective
action and response by the FFL. For violations such as a missing ZIP
code on a Form 4473, the report tells the FFL what to correct but does
not require additional action by ATF. Violations such as inventory
discrepancies, failing to record firearms in the A&D Book, missing or
improperly filled out Form 4473s, or failures to complete background
checks (NICS checks) require Industry Operations investigators to make
a recommendation for an administrative action. Based on the severity
and frequency of these violations, ATF can institute a series of
administrative actions that are described below in increasing order of
severity. 21

       •	 Warning letters – ATF sends a letter to the FFL that outlines
          violations found during the inspection, the need to correct the
          violations, and the potential for revocation of the license if the
          licensee does not come into compliance. A recall inspection is
          discretionary, although if ATF decides to perform a recall
          inspection the recall inspection can be performed no earlier
          than 1 year after the initiation of the last inspection, unless
          permitted by the FFL.
       •	 Warning conferences – ATF requires the FFL to meet with the
          DIO or Area Supervisor at an ATF office to discuss the
          violations, corrective actions, and the potential for revocation.
          In addition, a recall inspection must be conducted by ATF,
          although the recall inspection can be performed no earlier than
          1 year after the initiation of the last inspection, unless
          permitted by the FFL.
       •	 Revocations or denials of license renewal – ATF revokes the
          FFL’s license or denies an application to renew the license.
          These actions are reserved for FFLs with severe or repeated
          violations that are deemed willful or disregard legal obligations.



       21ATF Order 5370.1A, Federal Firearms Administrative Action Policy and
Procedures, October 30, 2009.


U.S. Department of Justice                                                      7
Office of the Inspector General
Evaluation and Inspections Division
      When the Industry Operations investigator recommends revoking a
license or denying its renewal, an Area Supervisor reviews the report and
forwards it for additional review by the DIO, who ultimately serves as the
deciding official. Before the DIO can issue an initial notice of revocation
or an alternative to revocation, or denies renewal of a license, the DIO
must consult with Division Counsel for input and assistance with
assessing the appropriateness of administrative action. This review by
the DIO and Division Counsel must occur before an initial notice of
revocation or denial can be sent to the FFL. According to ATF policy, the
Deputy Assistant Director for Industry Operations also reviews all
proposed revocations and denials to ensure consistent implementation of
ATF policy.

       ATF’s administrative action policy allows DIOs to recommend less
severe alternatives, such as a warning conference, a warning letter, or an
agreement with the FFL, such as suspension of license for a limited time
to correct violations. DIOs must base the decision to recommend less
severe alternatives on the following factors: whether the FFL agrees to
conditions in addition to those imposed by law, including suspension of
business operations, implementation of a compliance plan, or allowing
Industry Operations investigators to conduct additional inspections.

       If ATF issues an initial notice of revocation, an FFL has 15 days to
request an administrative hearing; otherwise the license is revoked. If an
FFL requests a hearing, an ATF Hearing Officer examines the facts, hears
testimony from ATF and FFL witnesses, and then prepares a report of
findings and recommendations for the DIO. After receiving the Hearing
Officer’s report, the DIO may allow the FFL to retain the license or may
issue a final notice of revocation. If a final notice of revocation or denial
of license renewal is issued, the FFL has 60 days to appeal to
U.S. District Court.

Referrals to Criminal Enforcement

       During inspections, if an Industry Operations investigator finds
suspected criminal violations, including knowingly permitting straw
purchases, dealing firearms without a license, or knowingly providing
firearms to prohibited persons, the investigator prepares a referral to
ATF’s Criminal Enforcement section (or another law enforcement agency).
The investigator also submits information and documents for the
Industry Operations case management system, N-Spect. If approved by
an Area Supervisor, a criminal referral is forwarded to the appropriate
Field Intelligence Group, which determines whether there is actionable
intelligence and, if so, which law enforcement entity should receive the
referral information. According to ATF’s data, Industry Operations

U.S. Department of Justice                                                 8
Office of the Inspector General
Evaluation and Inspections Division
investigators made 2,563 referrals to the Criminal Enforcement section
in FY 2011.

Inspection Priorities

       In response to a 2004 OIG recommendation, ATF focuses its
compliance inspections on high-risk FFLs. In 2004, the OIG found that
ATF was unable to complete its cyclical inspections on a 3- or 5-year
basis. Given this inability, the OIG recommended that ATF use tracing
data and other intelligence to determine which FFLs were at highest risk
for violating federal firearms laws and to conduct inspections of these
high-risk FFLs separate and apart from the cyclical inspections. ATF
satisfied the recommendation by identifying high-risk FFLs based upon a
series of risk indicators, such as a high number of guns that were used
in crimes being traced to the licensee, numerous multiple sales by an
FFL to a single individual, theft or loss of firearms, NICS denial ratios,
location in a high-crime or border area, and tips from state and local law
enforcement. 22 The list of risk indicators is in ATF’s annual operating
plans. The annual operating plans for Industry Operations, and other
directives issued by ATF headquarters to the field divisions, describe the
importance of prioritizing high-risk inspections.

        As part of its efforts to focus compliance inspections on high-risk
FFLs, in 2004, ATF developed the Firearms Disposition Emphasis
Inspection Program. The program focuses compliance inspections on
specific areas of FFL business operations that may lead to the discovery
of illegal firearms diversion and trafficking. For example, to determine if
FFLs are violating federal firearms laws, ATF may direct Industry
Operations investigators to conduct inspections of FFLs in a particular
area that sell a high number of weapons known to be favored by
criminals.

Outreach Activities

       ATF’s Industry Operations also conducts outreach and education
efforts for FFLs and the firearms industry. These efforts include
distributing pamphlets, staffing information booths at gun shows,
holding seminars, and conducting other industry events. In FY 2011,
Industry Operations investigators participated in 521 such firearms
industry outreach activities. In addition, ATF personnel work with state
and local law enforcement agencies, schools, and large chain retail stores

       22 The NICS denial ratio is the number of NICS checks performed versus the
number of checks returned indicating that individuals are prohibited from owning
firearms.


U.S. Department of Justice                                                          9
Office of the Inspector General
Evaluation and Inspections Division
to present seminars on firearms laws. ATF considers outreach a vital
part of the FFL Inspection Program and, in FY 2010, ATF established
performance goals for each field division to conduct outreach activities at
a minimum number of gun shows. ATF has also worked with the
National Shooting Sports Foundation to develop information packets for
a “Don’t Lie for the Other Guy” campaign that helps FFLs prevent straw
purchases and identify firearms traffickers.

Additional Industry Operations Investigator Duties

       In addition to conducting FFL inspections and outreach, Industry
Operations investigators are responsible for conducting compliance and
qualification inspections of ATF’s Federal Explosives Licensees (FEL).
The FEL program is mandated by law to ensure that only qualified
persons are licensed to manufacture, import, and deal in explosives; to
educate license and permit holders about applicable explosives laws; and
to increase the rate of compliance with federal explosives laws. 23 The
FEL and FFL Inspection Programs work in tandem, using the same staff
and resources to accomplish both FEL and FFL program goals. A
provision in the Safe Explosives Act requires ATF to perform onsite
inspections of all FELs at least once every 3 years, with certain
exceptions, to determine compliance with federal explosives storage
regulations. 24 No similar statutory provision exists mandating
inspections of FFLs at set intervals. As a result, ATF’s annual operating
plans instruct field divisions to prioritize FEL inspections ahead of FFL
inspections.




       23  ATF’s authority to regulate the explosives industry began with the Organized
Crime Control Act of 1970, which established licensing and permitting requirements,
defined categories of people who should be denied access to explosives, and allowed ATF
to inspect licensees, and was codified at 18 U.S.C. §§ 841-848. The Safe Explosives Act
expanded these provisions in 2003 and amended portions of 18 U.S.C. §§ 841-845.
Federal regulations regarding FELs can be found in 27 C.F.R. Part 555.

       24 U.S. Department of Justice Office of the Inspector General, Review of the
Bureau of Alcohol, Tobacco, Firearms and Explosives’ Implementation of the Safe
Explosives Act, Evaluation and Inspections Report I-2005-005 (March 2005), and
Review of the Bureau of Alcohol, Tobacco, Firearms and Explosives’ Explosives Inspection
Program, I-2013-004 (April 2013).


U.S. Department of Justice                                                           10
Office of the Inspector General
Evaluation and Inspections Division
            SCOPE AND METHODOLOGY OF THE OIG REVIEW



Scope

      This review examined the changes ATF made in the program since
2004, including the process and standards for inspecting FFLs and the
changes made to the administrative action policy. We examined data
from FY 2004 through FY 2011, except as otherwise noted. We also
compared the data from the OIG’s 2004 review (FY 2002 data) with
FY 2011 data. We conducted fieldwork from July 2010 through May
2012.

Methodology

      In this review we conducted in-person and telephone interviews,
reviewed documents, analyzed ATF data, and asked Directors of Industry
Operations to complete a questionnaire. We visited ATF headquarters,
ATF headquarters units in Martinsburg, West Virginia, and field divisions
in Columbus, Ohio, and Kansas City, Missouri.

Interviews

       We interviewed a total of 159 officials and staff members at ATF
headquarters and field division offices. These interviews provided
background and context for ATF’s strategic goals and priorities for the
FFL Inspection Program, including the identification and prioritization of
high-risk FFLs for inspection. We also interviewed representatives from
the firearms industry and other advocacy groups.

Data Analyses and Document Reviews

       We analyzed FFL inspections data from FY 2004 through FY 2011
in the following categories: inspections, Industry Operations investigator
hours spent on inspections, violations, referrals, and recommendations
for administration actions. We examined data for all types of FFLs. 25

       25 There are nine types of federal firearms licenses: Type 1 - Dealer in firearms
other than destructive devices (includes gunsmiths); Type 2 - Pawnbroker in firearms
other than destructive devices; Type 3 - Collector of curios and relics; Type 6 -
Manufacturer of ammunition for firearms; Type 7 - Manufacturer of firearms other than
destructive devices; Type 8 - Importer of firearms other than destructive devices;
Type 9 - Dealer in destructive devices; Type 10 - Manufacturer of destructive devices;
and Type 11 - Importer of destructive devices. Retail gun dealers have Type 1 or Type 2
licenses. Types 4 and 5 are unassigned.


U.S. Department of Justice                                                           11
Office of the Inspector General
Evaluation and Inspections Division
This data came from ATF’s Industry Operations case management
system, N-Spect, and included information about each type of FFL
inspection in the study period. We also analyzed data from ATF’s
revocation and denial of license renewal tracking spreadsheet, which
allowed us to estimate times for the steps in the administrative action
process for FFLs.

      We reviewed ATF policies, guidelines, and plans relating to the FFL
Inspection Program. We also reviewed ATF budget requests and federal
firearms laws.

Site Visits

       We selected the two field divisions we visited based on criteria that
included: (1) number of firearms traced, (2) number of firearms
recovered, (3) firearms trafficking patterns, (4) size of FFL population and
types of FFLs, (5) staffing of field division, and (6) geographic size of field
division. In addition, ATF suggested we visit a field division that had
senior staff with extensive experience in Industry Operations. Since
another OIG team had recently visited and reviewed four field divisions in
the Southwest border region for the Project Gunrunner report, we did not
include those four in our analysis. 26 Based on all these criteria, we
selected Columbus, Ohio, and Kansas City, Missouri, for the site visits.
The site visits allowed us to observe FFL inspections in person, as well as
to observe how program policies are put into practice in the field. We
were also able to conduct interviews with ATF staff at all levels and
gather additional documents for analysis.




       26 U.S. Department of Justice Office of the Inspector General, Review of ATF’s
Project Gunrunner, Evaluation and Inspections Report I-2011-001 (November 2011).


U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW



       Since 2004, ATF has made improvements to its
       inspection process and increased outreach activities to
       the firearms industry. In addition, ATF’s administrative
       action policy was revised to provide more flexible and
       consistent guidance, and ATF instituted a review process
       to ensure that revocation criteria were consistently
       applied across field divisions. However, our review also
       found that:

    •	 ATF has not met its goal of inspecting all FFLs on a 

       cyclical basis, resulting in over 58 percent of FFLs not 

       being inspected within 5 years; 

    •	 although ATF’s annual Industry Operations operating 

       plan prioritized which FFLs were to be inspected, ATF 

       did not track whether high-risk FFL inspections met 

       annual operating plan priorities; and 

    •	 the administrative action process was significantly 

       prolonged after revocation cases were submitted for 

       Division Counsel review. 



Since 2004, ATF has made improvements to its inspection
processes and increased outreach activities to the firearms industry.

       In 2004, the OIG found that ATF FFL inspection policies and
procedures were not standardized and each field division seemed to
follow different inspection guidelines. The OIG recommended that ATF
develop a standard, streamlined inspection process that included more
efficient inventory and records reviews, automated inspection reporting,
and consistent examination of indicators of firearms trafficking. The OIG
also recommended all FFL applicants receive in-person application
inspections (now referred to as “qualification inspections”).

      In response to the OIG’s recommendation, ATF standardized FFL
inspection policies and procedures for performing FFL qualification and
compliance inspections. In addition, ATF requires its investigators to
conduct pre-inspection intelligence gathering, and it has vastly increased
the number of in-person qualification inspections. ATF also prioritized
targeted inspections of FFLs at a high risk for violating federal firearms
laws. In an effort to educate FFLs about firearms laws, ATF also
increased outreach to the firearms industry. Further, ATF directed that
all qualification inspections be conducted in person or, if that cannot be
U.S. Department of Justice                                             13
Office of the Inspector General
Evaluation and Inspections Division
done, that an in-person compliance inspection be conducted within
1 year of a telephone qualification inspection. Investigators must notify
the Deputy Assistant Director for Industry Operations of any telephone
inspections they conduct and explain why an in-person inspection could
not be conducted in the follow-up inspection reports.

ATF standardized the policies and                     Examples of Industry

                                                      Operations Handbook

procedures for FFL inspections.
                                                            Content


       In 2008, ATF issued an updated              •	 Requirements for pre-
                                                      inspection intelligence
Industry Operations Handbook                          gathering, instructions on
standardizing the procedures and steps for            how to gather and analyze
all types of firearms inspections, as well as         intelligence, and which
other Industry Operations initiatives. 27             reports and intelligence
These procedures are required to be                   should be collected.
followed by investigators when performing          •	 A Full Firearms Inspection
qualification and compliance inspections.             Quick Reference Guide that
                                                      outlines all the steps for
Our review of the Handbook found that it              compliance and
describes the procedures and steps for all            qualification inspections.
types of firearms inspections, as well as
                                                   •	 Instructions on how to
other Industry Operations initiatives. The            review Form 4473s and
text box provides examples of what the                A&D Books to identify
Industry Operations Handbook contains.                possible criminal violations.
                                                   •	 Instructions on when just a
       The updated Industry Operations                sample of firearms and
Handbook also requires investigators to               transaction records can be
collect and analyze intelligence prior to             inspected and how to take a
                                                      valid sample.
conducting qualification and compliance
inspections. This information assists              •	 Instructions on when a
                                                      recall inspection should be
investigators in preparing for a qualification
                                                      expanded from a limited to
inspection by determining if an applicant             a full scope inspection.
meets the requirements to operate as an
                                                   •	 Guidance on sharing
FFL and can identify any potential areas for          intelligence with Industry
further inquiry, including whether an                 Operations and Criminal
applicant has any other licenses or whether           Enforcement personnel.
an applicant has a business association            •	 Detailed instructions on
with someone who has previous or current              how to refer suspected
adverse actions under other federal                   criminal information and
firearms licenses.                                    what types of information to
                                                      refer.



       27The ATF Industry Operations Handbook, ATF H 5030.2C, February 2008,
updated the ATF Regulatory Enforcement Inspector Handbook, ATF H 5030.2B,
September 1996.


U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
       For compliance inspections, pre-inspection intelligence gathering
allows investigators to better plan the inspection and assists in
identifying potential areas of concern on which investigators can focus
during an inspection. Also, by researching the FFL’s prior inspection
history, an investigator can estimate the size of the inventory and request
additional staff or resources if needed to complete the inspection.
Additionally, the multiple sales reports that investigators review may
indicate that an FFL sells a large number of firearms that are considered
crime guns in the area. This could be an indicator of firearms trafficking
or simply information to help ATF determine where criminals are
obtaining firearms. Appendix II shows the types of pre-inspection
intelligence steps that investigators are directed to follow prior to a
qualification or compliance inspection.

       We found that the pre-inspection intelligence-gathering process
has been implemented and is being followed by investigators. For the
cases we reviewed, we found that the investigators were recording
information in the inspection files. In addition, all the investigators we
interviewed could articulate the proper procedures and steps for both
qualification and compliance pre-inspection intelligence gathering.
Furthermore, during our site visits, we accompanied investigators on
three compliance inspections and found that the investigators followed
the procedures and steps outlined in the Industry Operations
Handbook. 28

ATF conducted in-person qualification inspections, except in rare
circumstances.

       In 2004, the OIG found that ATF did not conduct in-person
qualification inspections on all new FFLs to verify applicant information
and ensure they understood firearms laws. 29 Qualification inspections
are used to verify that applicants are eligible for a license and assist in
deterring applicants that might pose a risk to public safety if they
possessed a license. Qualification inspections are the first contact an
Industry Operations investigator has with a potential FFL, and the
inspection is an opportunity for ATF to educate applicants about
firearms laws prior to permitting them to operate a firearms business.

     In 2006, ATF directed that all qualification inspections be
conducted in person and, in those circumstances where the investigator

       28 We observed two compliance inspections in the Kansas City field division and
one in the Columbus field division.

       29   OIG, Inspections of Firearms Dealers, 17.


U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
is unable to conduct the inspection in person, required that a follow-up
in-person compliance inspection be conducted within 12 months of a
telephone qualification inspection. 30 Neither ATF’s operating plans nor
the Industry Operations Handbook outline the circumstances where it
would be appropriate to conclude that an inspection cannot reasonably
be done in person. In 2010, ATF added further requirements for
qualification inspections – an investigator must notify the Deputy
Assistant Director for Industry Operations when a qualification
inspection has to be conducted over the telephone and, if an onsite
inspection cannot be conducted, the investigator must explain why in the
follow-up inspection report. 31 We were told by ATF that a telephone
inspection would be allowed, for example, when the location of an
applicant is 8 hours or more from the nearest ATF field office and it
would be more efficient to send an investigator to an area when there is
additional work to conduct.

      As a result of these changes, the percentage of qualification
inspections conducted by telephone decreased dramatically. In FY 2005,
11 percent (597 of 5,645) of qualification inspections were done by
telephone. In FY 2011, telephone qualification inspections made up only
0.2 percent (21 of 9,378) of all qualification inspections. Table 2
presents the number and type of qualification inspections from FY 2004
through FY 2011.




       30   ATF Industry Operations Handbook, ATF H 5030.2C, February 2008.

       31   ATF Field Operations Operating Plan FY 2011, October 2010, 13.


U.S. Department of Justice                                                    16
Office of the Inspector General
Evaluation and Inspections Division
      Table 2: Qualification Inspections Done by Telephone as a 

              Percentage of All Qualification Inspections, 

                      FY 2005 through FY 2011 

  Inspection Type     2005      2006       2007    2008     2009      2010     2011
  Conducted in
                       5,048    4,821      5,024   5,294     6,844    7,507     9,357
  Person
  Conducted by
                         597          91     44       57        25        21       21
  Telephone
  Total                5,645    4,912      5,068   5,351     6,869    7,528     9,378
  Percentage Done
                      11.0%      2.0%      1.0%     1.0%      0.4%     0.3%      0.2%
  by Telephone

  Notes: FY 2004 data was not included in this analysis because telephone
  qualification inspections were not distinguished from onsite qualification inspections
  in N-Spect. Separate coding for telephone qualification inspections began in
  FY 2005.
  In FY 2006, we found two qualification inspections that could not be categorized. We
  did not include them in our analysis.
  Source: ATF N-Spect data.

       Although ATF significantly decreased the number of telephone
qualification inspections, ATF did not always perform the required in-
person compliance inspection within 12 months of the telephone
qualification inspection, as required by its operating plans. Table 3
shows that while ATF performed the majority of the telephone follow-up
inspections, it consistently had at least three unperformed inspections in
each fiscal year that did not receive the required in-person follow-up
compliance inspections within 12 months.




U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation and Inspections Division
     Table 3: Frequency of Follow-up Compliance Inspections in 

          Response to Telephone Qualification Inspections, 

                     FY 2005 through FY 2010 

                                       2005a    2006a     2007   2008    2009     2010
 Telephone Qualification Inspections      597       91      44      57     25         21
 Telephone Qualification Inspections
 Requiring a Follow-up Compliance         140       57      41      50     25         18
 Inspectionb
 Required Follow-up Compliance
 Inspections Not Conducted                 62         5      4     13       4         3
 Within 12 Months
 Percentage                              44%        9%    20%    26%     16%      17%

Notes: No requirement existed in FY 2004 to conduct a follow-up compliance 

inspection following a telephone qualification inspection. Telephone qualification

inspections performed in FY 2011 were also excluded from this analysis because 

corresponding compliance inspections were to be completed in the next fiscal year.

aDue to the large number of telephone qualification inspections in FY 2005 and

FY 2006, the OIG requested a 20-percent sample of records for our review.

bSome telephone qualification inspections did not need a follow-up compliance

inspection because the application was withdrawn or abandoned.

Source: ATF.

      We also found that although ATF collects data regarding telephone
compliance inspections, it does not use the data to track whether an in-
person compliance inspection is conducted within 12 months after the
telephone qualification inspection. We asked ATF officials to provide the
data, and they told us that locating this data involved searching
thousands of lines of code and matching the inspections manually. Due
to changes in license numbers, business names, and compliance
inspections not coded to identify them as being done in response to a
telephone qualification inspection in N-Spect, no automated query could
be performed to retrieve the information. 32

       Because qualification inspections are used to verify that applicants
are eligible for a license and assist in deterring applicants that might
pose a risk to public safety if they possessed a license, we believe that
ATF must ensure that it completes 100 percent of the required follow-up
inspections and that it should carefully track whether follow-up
inspections are being performed.



       32 ATF performed this query for us manually, which formed the basis for the
information reported in Table 3, above.


U.S. Department of Justice                                                            18
Office of the Inspector General
Evaluation and Inspections Division
ATF headquarters identifies and prioritizes high-risk FFLs for compliance
inspections.

       In 2004, the OIG found ATF to be ineffective in identifying high-
risk FFLs and reported that ATF did not identify and inspect all FFLs
that exhibited indicators of gun trafficking or potential violations. In
response to the OIG report, ATF began focusing on high-risk FFLs for
inspection. ATF headquarters created a field division discretionary
initiative to target high-risk FFLs. ATF determines whether to classify an
FFL as “high risk” based on a series of risk indicators such as a high
number of guns used in crimes being traced back to the licensee,
numerous multiple sales by an FFL to a single individual, thefts or losses
of firearms, NICS denial ratio, location in a high-crime or border area,
and tips from state or local law enforcement. 33 For example, in ATF’s
FY 2009 Operating Plan, ATF considered pawnbrokers located in a high-
crime area to be high-risk FFLs.

       Each fiscal year, ATF’s Field Operations operating plan lays out
headquarters-mandated priorities and field divisions’ discretionary
initiatives. 34 The operating plan initiatives change annually based on
priorities and on intelligence analyzed throughout the year. Field
divisions are directed to address mandated priorities before addressing
discretionary initiatives. 35 For example, in the FY 2012 operating plan,
the inspection of 100 percent of FFL manufacturers and importers every
5 years was a headquarters-mandated priority for firearms compliance
inspections, and field divisions were directed to address this priority over
discretionary initiatives.

       Field divisions may also receive a special request from ATF’s
National Tracing Center, the Federal Firearms Licensing Center, or an
ATF special agent to inspect an FFL based on intelligence information.
These special requests are conducted on a discretionary basis in field
divisions. Special requests can be submitted for a variety of reasons,
such as to identify an FFL that sold a firearm to an individual who used



       33   The list of risk indicators are listed in ATF’s annual operating plans.

       34  The ATF Field Operations operating plan is sent to all field divisions at the
beginning of each fiscal year. It is developed by a board incorporating DIOs from
various field divisions as well as ATF headquarters personnel.

       35ATF’s annual operating plans require that headquarters-mandated priorities
be completed before the end of each fiscal year. Discretionary initiatives can be
addressed when resources are available.


U.S. Department of Justice                                                                 19
Office of the Inspector General
Evaluation and Inspections Division
it to commit a crime or to verify that an FFL still does business at a
certain address. 36

ATF has increased its outreach to the firearms industry.

       Since 2004, we found that ATF has increased its outreach to the
firearms industry, established goals for field divisions related to gun
show outreach, and improved its education efforts. According to ATF,
outreach efforts provide the opportunity to educate FFLs about the laws
enforced by the FFL Inspection Program, which can, in turn, improve
compliance. Additionally, outreach and education can aid in preventing
and detecting the diversion of firearms. Outreach activities include
training sessions for FFL employees, presentations at firearms industry
conferences and events, and staffing information booths at gun shows.
ATF also considers reviewing federal firearms laws and regulations with
FFL employees during qualification and compliance inspections to be a
part of its outreach efforts. In addition, ATF produces educational
materials and other resources for the firearms industry. The efficacy of
these outreach efforts was beyond the scope of the OIG’s review.

      As seen in Figure 2, the number of firearms outreach activities has
more than tripled (142 to 521) from FY 2004 through FY 2011.

                     Figure 2: Number of ATF Outreach Activities, 

                               FY 2004 through FY 2011 

                                    600                                             521
             Number of Activities




                                    500                                 426   418
                                    400                     319   333
                                                305
                                    300               224
                                    200   142

                                    100

                                      0
                                          2004 2005 2006 2007 2008 2009 2010 2011
                                                         Fiscal Year


                     Source: ATF N-Spect data.




       36 Requests also occur when the Federal Firearms Licensing Center or National
Tracing Center needs to verify a background check or a change of address for an FFL.


U.S. Department of Justice                                                                20
Office of the Inspector General
Evaluation and Inspections Division
      In FY 2010, ATF began setting goals for outreach activities in the
annual operating plan and tracking these activities in N-Spect. The
FY 2010 goals called for each field division to attend a minimum of three
gun shows and complete five or more other types of outreach activities.
In FY 2011, ATF increased the minimum requirement from three to six
gun shows. Table 4 shows that 18 of the 25 field divisions (72 percent)
met the FY 2011 goal of attending at least 6 gun shows in FY 2011.

         Table 4: Field Division Gun Show Outreach Activities, 

                                FY 2011 

                Field Division           Number of Gun Shows
                        Met Gun Show Outreach Requirement
                Tampa                                      20
                Atlanta                                    12
                Phoenix                                    12
                Miami                                      11
                Nashville                                  11
                Dallas                                     10
                Philadelphia                                9
                San Francisco                               8
                Chicago                                     7
                St. Paul                                    7
                Los Angeles                                 7
                Baltimore                                   6
                Washington                                  6
                Columbus                                    6
                Louisville                                  6
                New Orleans                                 6
                Kansas City                                 6
                Houston                                     6
                 Did Not Reach Gun Show Outreach Requirement
                New York                                    5
                Detroit                                     5
                Seattle                                     5
                Denver                                      5
                Boston                                      3
                Charlotte                                   2
                Newark                                      0
                Totals                                    181
                Source: ATF N-Spect data.


Conclusion

       Since the OIG’s 2004 report, ATF made significant changes to its
FFL Inspection Program. ATF revised the standards and procedures for
qualification and compliance inspections, and added the requirement of
pre-inspection intelligence collection. In addition, ATF added a

U.S. Department of Justice                                             21
Office of the Inspector General
Evaluation and Inspections Division
requirement to conduct in-person qualification inspections absent
unusual circumstances documented and reported to the Deputy
Assistant Director, and the number of telephone qualification inspections
decreased dramatically. While ATF performed the majority of the in-
person follow-up compliance inspections for FFLs that received a
telephone qualification inspection, it failed to perform a few follow-up
inspections in each fiscal year of the review period and did not track
whether the follow-up inspections were performed. ATF also began
prioritizing high-risk FFLs for inspection and increased outreach and
education efforts to FFLs and the firearms industry.

       Because qualification inspections are used to verify that applicants
are eligible for a license and assist in deterring applicants that might
pose a risk to public safety if they possessed a license, we recommend
that ATF:

       1. Track whether an in-person follow-up compliance inspection is
          conducted within 12 months of a telephone qualification
          inspection.

ATF has not met its operational goals of inspecting all FFLs on a
cyclical basis and tracking whether high-risk FFL inspections met
annual operating plan priorities.

ATF did not meet its goal of inspecting all FFLs on a cyclical basis,
resulting in over 58 percent of FFLs not being inspected for 5 years.

      We found that between FY 2007 and FY 2012, over 58 percent of
FFLs (73,204 out of 125,481) had not been inspected for 5 years.

      During this same time, the number of FFLs increased by
16 percent (from 106,214 in FY 2004 to 123,587 in FY 2011) and ATF
increased the number of investigators by 22 percent (from 510 in 2004 to
624 in 2011). Despite this increase, ATF field divisions told ATF
headquarters in 2012 that they were still understaffed by 45 percent and
that they needed 504 more investigators to conduct all inspections due
that year. 37 (See Appendix III for ATF’s staffing estimates for all
inspection activities and shortages by field division for FY 2012.)




       37   The OIG did not independently verify this claim.


U.S. Department of Justice                                              22
Office of the Inspector General
Evaluation and Inspections Division
      In our 2004 report, we noted that the Inspection Program was
understaffed. Based on the analysis we did in this current review, we
conclude that this is still the case. In FY 2010, ATF had 940,500
available investigator hours to complete all types of inspections, but
based on our analysis of ATF data indicating how long it took (on
average) for investigators to
complete inspections, ATF would                    Example: Kansas City
have needed 1,140,139                       The Kansas City Field Division has both
investigator hours to complete 5-       a large number of FFLs and a large
year cyclical compliance                geographic area to cover. A compliance
inspections alone, a shortfall of       inspection there took an average of 28
                                        investigator hours to perform. To complete
199,639 hours. 38                       all 1,981 inspections due in FY 2010, the
                                               division would have needed 55,468
       ATF’s shortfall in inspection           investigator hours. Even assuming every
staffing is partly attributable to             investigator in the division worked the
the large geographic areas some                entire year, and worked solely on cyclical
                                               FFL compliance inspections (and did none
field divisions cover (see the text            of the statutorily required qualification and
box for an example) and the rising             compliance inspections of Federal
number of FFLs nationwide.                     Explosives Licensees), the division would
Additionally, as noted above,                  have had, at most, only 54,000 investigator
since 2004, the number of FFLs                 hours available to it, leaving a shortfall of
                                               almost 1,500 hours.
has increased by 16 percent (from
106,214 in FY 2004 to 123,587 in                   In addition, the Kansas City Field
                                               Division is responsible for covering four
FY 2011). While ATF increased
                                               states and more than 283,000 square
the number of investigators by                 miles, making travel time a drain on
22 percent during the same                     inspection hours. Investigators from the
period, we still found that there              division’s Kansas area office, for example,
were insufficient investigator                 sometimes traveled over 6 hours to inspect
                                               FFLs on the other side of the state. The
resources to meet the goal of
                                               Area Supervisor there told us that, to limit
conducting cyclical compliance                 travel time, investigators are assembled in
inspections of all FFLs. Even in               teams so that multiple FFL inspections can
field divisions where ATF had                  be scheduled in the most distant part of
enough investigator hours                      the state.
available to complete cyclical

       38  ATF estimates that a federal employee has approximately 1,477 hours a year
to devote to operational activities (after time for leave and training is subtracted). In our
analysis, we rounded ATF’s estimate to 1,500 available hours for each investigator to
calculate hours needed nationally for inspections. We note that this average results in
a shortfall equivalent to 133 investigators to perform all cyclical 5-year compliance
inspections. We also note a wide variance among ATF field divisions in the hours taken
to perform compliance inspections – from 28 hours in the Kansas City field division to
90 hours in the Baltimore field division. We did not have data sufficient to evaluate the
reasons for those variances. See Appendix IV for the number of investigators and FFLs
in each of ATF’s 25 field divisions, the investigator hours needed, and the available
investigator hours.


U.S. Department of Justice                                                               23
Office of the Inspector General
Evaluation and Inspections Division
inspections, the law and ATF operating plans prioritize other types of
inspections over cyclical inspections:

   •	 Explosives Licensees – The Safe Explosives Act requires that ATF
      complete qualification inspections for Federal Explosives Licensee
      applicants within 90 days of receipt of the applications and
      conduct compliance inspections on explosives licensees every
      3 years. 39 No similar statutory requirement exists for the
      inspection of FFLs. As a result, ATF’s operating plans consistently
      prioritize FEL inspections over FFL compliance inspections.
   •	 FFL Qualification Inspections – ATF’s annual operating plans
      require that field divisions conduct qualification inspections in
      person for all new FFL applicants in the year the applications are
      received. In its operating plans for FY 2004 through FY 2011, ATF
      prioritized FFL qualification inspections over FFL compliance
      inspections for the field divisions. While they were successful in
      dramatically decreasing the number of telephone qualification
      inspections, this resulted in fewer available investigator hours for
      cyclical compliance inspections.
   •	 High-Risk FFL Compliance Inspections – In response to a
      recommendation by the OIG in 2004, ATF established a high-risk
      FFL compliance inspection category to focus resources on FFLs
      that pose the most threat of being used by gun-traffickers in
      violating gun laws. ATF’s annual operating plans require field
      divisions to conduct these high-risk FFL inspections, and
      consequently the high-risk inspections take priority over cyclical
      FFL compliance inspections.

ATF did not track whether high-risk FFL inspections met annual
operating plan priorities.

      In 2004, the OIG recommended that ATF prepare quarterly reports
on the productivity and results achieved by each field division. In our
current review, we found that while ATF was tracking the number of
hours worked on each inspection, it was not tracking which inspections
met annual operating plan priorities, such as discretionary inspections of
high-risk FFLs.

      ATF personnel told us that there was no general code or field that
could be queried in the N-Spect database to determine which inspections
were done under a discretionary initiative. Additionally, DIOs told us

       39   The Safe Explosives Act of 2002, 18 U.S.C. § 843(b)(4)(A).


U.S. Department of Justice                                               24
Office of the Inspector General
Evaluation and Inspections Division
that N-Spect’s project codes were not a reliable way of identifying high-
risk FFL inspections because field divisions appeared to assign different
meanings to different codes. This was confirmed through a
questionnaire we distributed to the DIOs. Thirteen of the 20 who
responded (65 percent) stated that project codes identifying recall and
other types of inspections were considered high risk, while 4 DIOs stated
that those same codes were not always associated with high-risk FFLs. 40
Because it has not assigned inspection codes that correspond to FFLs
identified as high risk, ATF headquarters does not have an efficient way
to determine which inspections are opened to meet the high-risk FFL
inspection discretionary initiative or whether its annual operating plan
goals are being met.

Conclusion

       We conclude that ATF did not meet its operational goals. ATF is
unable to conduct FFL compliance inspections on a cyclical basis,
resulting in some FFLs going 5 or more years without an inspection.
Inadequate Industry Operations staffing, the substantial number of FFLs
to be inspected, the large geographic areas to be covered by some field
divisions, and the investigator resources spent on competing priorities all
appear to have contributed to ATF’s inability to conduct compliance
inspections on a cyclical basis. ATF’s inability to conduct cyclical
compliance inspections is not a new problem – the OIG found this to be
true in its 2004 review. We understand the limitations that ATF has in
meeting its goal to inspect FFLs on a 3- or 5-year basis. However, we
believe that ATF needs to reconsider how to meet its cyclical compliance
goals since the problems identified in 2004 still exist. Allowing non-
compliant FFLs to go uninspected by ATF could present a public safety
issue.

       Finally, ATF cannot easily determine which inspections are opened
to meet its high-risk FFLs inspection discretionary initiative because its
case management system does not have a general code that can be
queried electronically to determine all of those inspected under an
initiative.




       40  There are 25 field divisions in ATF and 23 DIOs. Two DIOs oversee two field
divisions each. Twenty DIOs responded to the questionnaire.


U.S. Department of Justice                                                          25
Office of the Inspector General
Evaluation and Inspections Division
       To ensure that non-compliant FFLs do not go undetected by ATF
for long periods of time, we recommend that ATF:

       2. Reconsider how to meet its goal of performing FFL cyclical
          compliance inspections on a 3- and 5-year basis, respectively.

      To ensure that ATF can adequately track when high-risk FFL
inspections are opened to meet operating plan priorities, we recommend
that ATF:

       3. Develop and implement a uniform coding system that shows
          when a high-risk FFL inspection was performed.

ATF’s administrative action policy was revised to provide more
flexible and consistent guidance, and ATF instituted a review
process to ensure that revocation criteria were consistently applied
across field divisions.

      In May 2003, ATF issued a policy requiring all field divisions to
adhere to a unified set of criteria for determining when to revoke or deny
renewal of a license. 41 In 2004, the OIG found that despite that policy,
revocations were conducted in an inconsistent and untimely manner. In
FY 2007 and FY 2009, ATF revised the policy to help field division
personnel make consistent and appropriate determinations on whether
to revoke a license or take some other action when an FFL was found to
have violated federal firearms laws. 42 ATF also provided field divisions
with more flexibility by allowing DIOs to apply alternative administrative
actions instead of revoking licenses when appropriate. In FY 2008, ATF
headquarters also began reviewing FFL revocations to ensure that
revocation criteria were consistently applied across field divisions.

ATF standardized its administrative action policies and provided field
divisions with more flexibility in dealing with non-compliance.

      Based on the changes made to the administrative action policies
since FY 2003, alternatives to revocation now include one of, or a
combination of, the following:

       •    a warning conference with the DIO,
       •    a warning letter,

       41   ATF Brief 5370.1 (May 8, 2003).

       42 ATF’s review process uses the term “revocation” to refer to both revocations
and denials of license renewal.


U.S. Department of Justice                                                           26
Office of the Inspector General
Evaluation and Inspections Division
       •	 a negotiated agreement with the FFL that might include a
          corrective action plan,
       •	 re-inspection,
       •	 suspension,
       •	 fine, or
       •	 voluntary surrender of license in lieu of revocation.

       Since 2004, the administrative action policy has included a table of
violations that establishes criteria for when violations merit revocation or
an alternative to revocation. The standards for administrative actions
listed in the table of violations became more comprehensive in later
versions. For example, in 2007, ATF added standards for warning letters
and, in 2009, ATF gave DIOs additional discretion in recommending
alternatives to revocation. The DIO of a field division can recommend
alternatives to revocation in consultation with the Division Counsel, as
well as the Deputy Assistant Director for Industry Operations, the
Assistant Director of the Office of Field Operations, and the Deputy Chief
Counsel at ATF headquarters. These alternatives allow FFLs the
opportunity to become compliant or, when needed, allow ATF to establish
“willfulness” by recording past instances of similar violations, thus
establishing grounds to revoke the licenses of repeat offenders.

        We found that ATF revoked 71 licenses in FY 2011 compared with
125 in FY 2004, a 43-percent decrease in revocations. At the same time,
the number of alternative actions increased: warning conferences by
80 percent, warning letters by 1,121 percent, and reports of violations by
276 percent. (See Figure 3 for the actual numbers of actions in each
fiscal year.)




U.S. Department of Justice                                               27
Office of the Inspector General
Evaluation and Inspections Division
      Figure 3: Percentage of Administrative Actions that Were 

               Revocations, FY 2004 through FY 2011 

                                  20%

                                  18%

                                  16%
         Percent of Revocations


                                  14%

                                  12%   11%

                                  10%

                                  8%             6%       6%
                                  6%

                                  4%                              2%      2%     2%     2%        2%
                                  2%

                                  0%
                                        2004    2005     2006    2007    2008   2009    2010      2011
                                                                  Fiscal Year



Administrative
                                              2004     2005     2006    2007    2008    2009       2010     2011
Actions
Revocation/Denial of
                                               125      118      148       93     84         67        70     71
Renewal
Total Administrative
                                              1,127    1,868    2,434   3,959   3,936   3,226      3,669    4,056
Actions

Source: ATF N-Spect data.

       Most ATF officials we interviewed at headquarters and in the field
divisions viewed the administrative action process favorably. Several
DIOs stated that the flexibility of the current policy allowed ATF to
educate FFLs and work with them to bring them into compliance by
applying successive levels of administrative actions in response to
violations. One Area Supervisor stated that a warning conference served
as a “wakeup call” for most FFLs, while another said that the
administrative action process and policy allowed Industry Operations
investigators to “apply their expertise and assist the FFL in correcting
issues.” A DIO stated that FFLs became more educated by going through
the administrative action process and became more compliant as a
result.

      In the course of our review, we observed a recall inspection of an
FFL that had previously been cited with violations and had been required

U.S. Department of Justice                                                                                    28
Office of the Inspector General
Evaluation and Inspections Division
to attend a warning conference with ATF a year and a half earlier. The
FFL told the OIG that he never wanted another warning letter and did
not want to have to come back to the ATF field division office for another
warning conference. He stated that the warning conference had made
him realize that he needed to try hard to minimize mistakes and adhere
to all laws.

At the conclusion of each fiscal year, ATF headquarters reviews FFL
license revocations for consistent application of revocation criteria across
field divisions.

      Beginning in August 2009, ATF assigned a working group, called
the Revocation Validation and Assertion Team, to review revocations that
had been completed during the prior fiscal year and evaluate whether
revocation criteria had been applied consistently across field divisions.

       The Revocation Validation and Assertion Team used six criteria
based on ATF Order 5370.1A to determine if there is a public safety
nexus for revocations: (1) missing firearms, (2) no NICS forms or
Form 4473s, (3) transfers to prohibited persons, (4) selling to straw
purchasers, (5) false entries or records, and (6) failure to use an A&D
Book. The criteria measured the “intensity” of the public safety nexus
using four categories: unsubstantiated, minimal, moderate, and
substantial. At the low end of the scale, the unsubstantiated category
consisted of cases with no public safety nexus, such as an FFL failing to
meet local zoning requirements. At the opposite end of the scale, the
substantial category consisted of cases with a high public safety nexus.
An example of a case with a high public safety nexus would be one where
a license was revoked because the FFL was missing NICS forms,
Form 4473s, or firearms. Once the nexus was determined, the team
would make a second qualitative judgment as to whether the revocation
was the correct decision or an alternative to revocation was warranted.

       We reviewed 10 revocation files, randomly chosen from FY 2010
and FY 2011, to evaluate whether the ATF Revocation Validation and
Assertion Team consistently used the six revocation criteria listed above.
Based on our review of those 10 files, including the associated Industry
Operations inspection narratives, hearing officer reports, and court
documents, we found that the ATF Revocation Validation and Assertion
Team appeared to use consistent criteria in those cases to evaluate
whether the utilization of revocations was correct. Although we looked to
see if the criteria listed as being used were consistent across revocation
decisions, it was beyond the scope of this review to analyze the merits of
each case file and to determine if the process was consistently applied.


U.S. Department of Justice                                               29
Office of the Inspector General
Evaluation and Inspections Division
      From FY 2008 through FY 2011, the ATF Revocation Validation
and Assertion Team reviewed revocation criteria for 252 closed cases and
concluded that in 7 cases (less than 3 percent) an alternative other than
revocation should have been utilized. The Revocation Validation
Assertion Team did not assess whether ATF had followed established
procedures in these cases. In fact, over the course of our review, we
noted that in some cases, the revocation process may not have been
followed consistently. The OIG intends to examine the revocation
process in more detail in a future review.

Conclusion

       ATF’s revisions in FY 2003, FY 2007, and FY 2009 to its
administrative action policy provided Industry Operations staff more
detailed guidance in determining administrative actions. These revisions
also provided ATF staff the flexibility to work with non-compliant FFLs
rather than revoking their licenses. Additionally, ATF implemented a
review process to assess whether revocation criteria were applied
consistently across field divisions.

ATF’s administrative actions process is significantly prolonged after
submission for Division Counsel review.

       In 2004, the OIG found that the revocation process for non-
compliant FFLs was lengthy and involved numerous ATF officials. The
OIG recommended that ATF develop an administrative action tracking
system to monitor the progress and timeliness of FFL denials and
revocations. ATF resolved the recommendation in 2005. Our current
review examined the data ATF provided from this tracking system and
also found that the administrative action process for non-compliant FFLs
is prolonged when a revocation or denial of a license renewal is involved.

ATF’s processing time for revocations of non-compliant FFL remains
lengthy.

      In 2004, the OIG recommended that ATF direct its licensing center
to develop a tracking system to monitor the progress and timeliness of
FFL denials and revocations. As a result, in FY 2005, ATF began
tracking the steps in the administrative action process in a spreadsheet.
The longest cases were the revocation cases that were appealed in federal
court, and we understand that the length of time to process these cases
was not entirely within ATF’s control.

      We reviewed ATF’s tracking spreadsheet and N-Spect data on
revocations, focusing on firearms dealers and pawnbrokers from FY 2005

U.S. Department of Justice                                             30
Office of the Inspector General
Evaluation and Inspections Division
through FY 2010. Firearms dealers and pawnbrokers sell firearms to the
public and make up the majority of the high-risk inspections. We found
that of the 453 licenses revoked from FY 2005 through FY 2010,
149 (33 percent) of the cases took longer than 1 year from the DIO’s
initial recommendation to the final revocation notice. Of those
149 cases, 41 took longer than 2 years, including 6 that took longer than
3 years. In nearly all these cases, the FFLs were able to continue doing
business until the date the license revocation became effective. 43

Directors of Industry Operations were generally reviewing
recommendations for revocations in a timely manner.

       According to ATF’s 2009 administrative action policy, cases
involving revocation should be finalized within 120 days from the
beginning of the DIO’s review until issuance of a notice of revocation,
including the Division Counsel’s review. 44 In addition, the policy states
that “Division Counsel should have a minimum of 60 days to complete
their review and prepare the Notice of Revocation.” The policy also states
that the Division Counsel’s review of recommendations for revocation is
included in this 120-day timeframe, but the responsibility to meet the
120-day time standard is the DIO’s.

      ATF’s administrative action tracking data showed that the DIOs
were generally reviewing recommendations for revocations in a timely
manner. We found that about 73 percent (696 of 961) of the cases were
reviewed within 30 days by the DIO and that 16 percent (151 of 961) of
the cases took over 60 days for the DIO review (see Table 5). In the
majority of cases, Division Counsel had at least 90 days out of the 120-
day time standard to complete their review.




       43  Some revocations did not go into effect until several weeks or months after
the final notice of revocation because the FFLs received extra time from ATF or the
courts to liquidate or transfer their firearms inventory.

       44   ATF Order 5370.1A (October 30, 2009), 7.


U.S. Department of Justice                                                               31
Office of the Inspector General
Evaluation and Inspections Division
              Table 5: Median Number of Days for DIO Review, 

                         FY 2005 through FY 2010

         Days to Review Recommended
                                                   Cases         Percentage
              Administrative Action
        1 to 15 days                                    546          57%
        16 to 30 days                                   150          16%
        31 to 45 days                                    78           8%
        46 to 60 days                                    36           4%
        Over 60 days                                    151          16%
        Total                                           961         101%
        Notes: The table does not include data from FY 2004 because ATF did
        not start tracking final administrative action information until FY 2005.
        The number of cases includes only those cases that had complete data
        in the tracking spreadsheet. Percentages do not add to 100 due to
        rounding.
        Source: ATF administrative action tracking data.

ATF did not ensure that administrative actions were not unduly
prolonged after cases moved to Division Counsels for review.

       In 2004, the OIG reported that, according to ATF officials,
revocation proceedings were lengthy due to delayed support from ATF
attorneys. Assistant Chief Counsels and Division Counsels
acknowledged delays in denial and revocation proceedings. 45 At that
time, Division Counsels attributed the delays to their heavy workloads
and the fact that the information they received from the Industry
Operations investigators did not always show that an FFL knowingly and
willfully violated federal firearms laws. In addition, the OIG found in
2004 that a shortage of counsel staff in field divisions contributed to
delays in the revocation process.

       In the course of this review, we also found delays in the revocation
process after the revocation was sent to the Division Counsels for review.
While the Office of Chief Counsel told us that the vast majority of
Division Counsel reviews were completed in every region in less than 60
days, we found to the contrary – only 37 percent of cases were completed
in less than 60 days, and across all field divisions the Division Counsels
took a median of 80 days to review recommendations for revocations. Of
the 637 cases we reviewed, 403 cases (63 percent) required more than
60 days for Division Counsel review, including 202 cases (32 percent)




       45   OIG, Inspections of Firearms Dealers, 41.


U.S. Department of Justice                                                          32
Office of the Inspector General
Evaluation and Inspections Division
that required more than 120 days. 46 Table 6 shows the time cases were
under Division Counsel review from FY 2005 through FY 2010.

 Table 6: Number of Days Revocations Were under Division Counsel
           Review by Ranges, FY 2005 through FY 2010
                Days to Review
                                                 Cases          Percentage
      Recommendations for Revocation
      1 to 30 days                               103                 16%
      31 to 60 days                              131                 21%
      61 to 90 days                              117                 18%
      91 to 120 days                              84                 13%
      Over 120 days                              202                 32%
      Total                                      637                100%
      Notes: The table does not include data from FY 2004 because ATF did not
      start tracking final administrative action information until FY 2005. The
      number of cases includes only those cases that had complete data in the
      tracking spreadsheet. Percentages are rounded.
      Source: ATF administrative action tracking data.

      We further found that only the Midwest Region (comprising the
Chicago, Columbus, Louisville, Detroit, and St. Paul field divisions) had a
formal policy with a time standard for counsel review – 60 days. 47
However, even with the policy, review by Division Counsel in the Midwest
Region took anywhere from 5 days to 835 days, and still had a median
length of 80 days, which was greater than the median review time for
three other regions. The other regions’ median review time ranged from
58 days to 137 days.

      The Deputy Chief Counsel stated that the Chief Counsel’s office
had received feedback on some Division Counsels taking a long time to
conduct initial reviews of recommendations for administrative action. He
stated that he spoke with some Division Counsels, who told him that
they did not always have the cases for the entire time indicated in the
administrative action tracking spreadsheet. However, he said some
revocations are not pursued when a law enforcement action is initiated
against the licensee during Division Counsel review and other occasions
when a Counsel will return the file to the Industry Operations staff and
request additional information before rendering an opinion. He said that
while the latter situations are not captured in the Industry Operations
tracking system, they are tracked by his office separately, and the time

       46 The number of cases includes only those cases that had complete data in
ATF’s tracking spreadsheet.

       47   ATF Order 5370.1A (October 30, 2009), 7.


U.S. Department of Justice                                                          33
Office of the Inspector General
Evaluation and Inspections Division
awaiting a response is more appropriately attributed to Industry
Operations than to Counsel. The OIG could not verify this information
because of limitations in the tracking system data provided by ATF.

        Also, according to the Deputy Chief Counsel at ATF headquarters,
each field division should have one Division Counsel and one staff
counsel. He said that only 10 of the 25 field divisions had 2 attorneys
and that ATF did not have the budget to apply the staffing structure to
all field divisions. Division Counsels we interviewed during our site visits
also cited understaffing as a challenge to their role in the FFL Inspection
Program.

Conclusion

      ATF’s revocation process remains lengthy. While the processing
time for cases appealed to federal court is not entirely within ATF’s
control, we found that Division Counsel review of revocation cases
sometimes prolonged the process. We recognize that the length of time
Division Counsel takes to review a case is affected by factors such as law
enforcement actions initiated during Division Counsel review and the
occasional need to request additional information, as well as the
complexity of a particular case. However, because non-compliant FFLs
can sell firearms during the revocation process, it is imperative that ATF
process revocations with all appropriate speed. Therefore, we
recommend that ATF:

       4. Determine and address the reasons, exclusive of any staff
          shortages, for delays of revocation cases during Division
          Counsel review.




U.S. Department of Justice                                               34
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       We concluded that ATF has made improvements to its FFL
Inspection Program. Specifically, since the OIG’s 2004 report, ATF has
revised the standards and procedures for qualification and compliance
inspections, and required pre-inspection intelligence collection. In
addition, ATF required that qualification inspections must be conducted
in person unless a telephone inspection was authorized by the Deputy
Assistant Director for Industry Operations, and we found that the
number of qualification inspections conducted by telephone has
decreased dramatically. While ATF performed the majority of the in-
person follow-up compliance inspections for FFLs that received a
telephone qualification inspection, it failed to perform a few follow-up
inspections in each fiscal year of the review period and did not track
whether the follow-up inspections were performed. ATF also began
prioritizing high-risk FFLs for inspection and increased outreach and
education efforts to FFLs and the firearms industry.

       Despite these improvements, we identified several areas that ATF
needs to address. First, ATF did not meet its goal of inspecting all FFLs
on a cyclical basis. Inadequate Industry Operations staffing, high
numbers of FFLs to be inspected, large geographic areas to be covered by
some field divisions, and Industry Operations resources being expended
on competing priorities all appear to have contributed to ATF’s inability
to conduct compliance inspections on a cyclical basis. In light of these
issues, we believe that ATF needs to reconsider how to address the
critical need to perform cyclical compliance inspections in a timely
fashion. In this regard, we note that the basic problem identified by the
OIG in 2004 still exists and, in fact, only 62 percent of the FFLs
inspected in FY 2011 were found to be fully compliant with federal
firearms laws. Statistics such as the large number of firearms that are
missing, lost, or stolen from FFL inventories underline the need for
prompt, effective action by ATF in this area.

      Second, ATF did not track when high-risk FFL inspections met
annual operating plan priorities. No fields or codes exist within the
inspections case management system that can be used to easily identify
which FFL inspections performed corresponded to high-risk FFLs.

       We also concluded that ATF has made improvements to its
administrative revocation process. ATF’s revisions to its administrative
action policy provided staff more detailed guidance in determining
administrative actions. These revisions also provided ATF staff the
flexibility to work with non-compliant FFLs rather than revoking their

U.S. Department of Justice                                             35
Office of the Inspector General
Evaluation and Inspections Division
licenses. Additionally, ATF implemented a review process assessing the
application of revocation criteria across field divisions.

      However, ATF’s revocation process remains lengthy. While some of
the processing time was not entirely within ATF’s control, we found that
Division Counsel review of revocation cases sometimes prolonged the
process. We recognize that the length of time Division Counsel takes to
review a case is affected by factors such as the initiation of law
enforcement actions during Division Counsel review and the occasional
need to request additional information, as well as the complexity of a
particular case. However, because non-compliant FFLs can sell firearms
during the revocation process, it is imperative that ATF process
revocations with all appropriate speed.

Recommendations

       Because qualification inspections are used to verify that applicants
are eligible for a license and assist in deterring applicants that might
pose a risk to public safety if they possessed a license, we recommend
that ATF:

   1. Track whether an in-person follow-up compliance inspection is
      conducted within 12 months of a telephone qualification
      inspection.

       To ensure that non-compliant FFLs do not go undetected by ATF
for long periods of time, we recommend that ATF:

  2. Reconsider how to meet its goal of performing FFL cyclical 

     compliance inspections on a 3- and 5-year basis, respectively. 


      To ensure that ATF can adequately track when high-risk FFL
inspections are opened to meet operating plan priorities, we recommend
that ATF:

  3. Develop and implement a uniform coding system that shows when
     a high-risk FFL inspection was performed.

     Because non-compliant FFLs can sell firearms during the
revocation process, it is imperative that ATF process revocations with all
appropriate speed. Therefore, we recommend that ATF:

  4. Determine and address the reasons, exclusive of any staff
     shortages, for delays of revocation cases during Division Counsel
     review.

U.S. Department of Justice                                               36
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX I: FIELD OPERATIONS AND FIELD DIVISION 

                      ORGANIZATION CHART 





  Note: Field Counsels are referred to as Division Counsels in the report.

  Source: ATF.




U.S. Department of Justice                                                   37
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX II: PRE-INSPECTION INTELLIGENCE COLLECTION STEPS 




       Qualification Inspections                     Compliance Inspections
•   Review any special instructions         •   Review the inspection assignment and
    noted in the inspection assignment.         any special instructions.
•   Review the application and              •   Research the business, FFL, and
    supporting documentation.                   responsible persons, as well as any
•   Query the Federal Licensing System          other information relevant to the focus
    database to determine if the                of the inspection.
    applicant or potential employees        •   Query databases to determine if the
    have or have had any other licenses         FFL, or those designated to operate the
    or permits.                                 business, are prohibited from having a
•   Review ATF area office files for            license or if there is any other
    information related to previous             information that may indicate a security
    licenses.                                   risk.

•   Query ATF’s investigative case          •   Review the licensee’s history of
    management system, N-Force, for             compliance in the area office files and
    any open criminal investigations.           N-Spect.

•   Request information from the Field      •   Review firearms traced back to the FFL,
    Intelligence Group.                         multiple handgun sales made by the
                                                FFL, and firearms stolen or missing
•   Determine if the proposed business          from the FFL.
    would violate state or local zoning
    ordinances.                             •   Develop a list of commonly recovered
                                                crime guns and known weapons of
•   Determine the business structure.           choice in the local area.
•   Query the appropriate state agency      •   Review the National Instant Criminal
    for copies of business documents,           Background Check System audit log, or
    such as partnership agreements or           similar report from state agency, that
    state registration documents.               contains up to 60 days of transaction
                                                information.
                                            •   Query N-Force to determine if there is
                                                an open investigation on the FFL.
                                            •   Share information with ATF special
                                                agents and local law enforcement
                                                agencies if necessary.
                                            •   Request information from the Field
                                                Intelligence Group if appropriate.
                                            •   Review the FFL’s inventory of National
                                                Firearms Act weapons if necessary.*

* The National Firearms Act, enacted in 1934, imposed a special tax on the import,
manufacture, and transfer of firearms defined by the Act and required registration of all
these firearms. National Firearms Act weapons include shotguns and rifles having
barrels less than 18 inches in length, machine guns, and firearm mufflers and
silencers.




U.S. Department of Justice                                                                38
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX III: FY 2012 INDUSTRY OPERATIONS INVESTIGATOR 

 STAFF ESTIMATES, FOR ALL INSPECTIONS, RANKED BY SIZE OF 

                         SHORTAGE 




                                                     Shortage/
                                                                  Percent Staff
Field Division     Existing Staff     Staff Needed   Overage of
                                                                    Shortage
                                                       Staff
Columbus                 31                 73           -42         -58%
Kansas City              37                 78           -41         -53%
Charlotte                24                 56           -32         -57%
Seattle                  27                 59           -32         -54%
Nashville                30                 58           -28         -48%
St. Paul                 25                 52           -27         -52%
Boston                   22                 49           -27         -55%
Philadelphia             29                 54           -25         -46%
Tampa                    19                 44           -25         -57%
Denver                   22                 46           -24         -52%
Dallas                   49                 71           -22         -31%
New Orleans              28                 49           -21         -43%
Houston                  43                 59           -16         -27%
Louisville               23                 39           -16         -41%
Chicago                  16                 32           -16         -50%
San Francisco            24                 39           -15         -38%
Detroit                  16                 30           -14         -47%
Los Angeles              24                 38           -14         -37%
Atlanta                  24                 37           -13         -35%
Phoenix                  34                 47           -13         -28%
Washington               22                 35           -13         -37%
Baltimore                 8                 19           -11         -58%
New York                 15                 26           -11         -42%
Newark                   10                 14            -4         -29%
Miami                    16                 18            -2         -11%
Totals                  618              1,122          -504          -45%
Source: ATF.




U.S. Department of Justice                                                   39
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX IV: WORK HOURS AVAILABLE AND NEEDED FOR FFL 

    5-YEAR CYCLICAL COMPLIANCE INSPECTIONS IN FY 2010 




                                                              Average IOI
                                                                               Hours
                                               FFLs in the      Hours
                                IOI Hours                                    Needed for
Field Division      IOIs*                         Field       Spent on a
                                Available                                   Compliance
                                                Division      Compliance
                                                                            Inspections
                                                              Inspection
Atlanta                 25        37,500          3,233           48           31,056
Baltimore                9        13,500          2,499           90           45,000
Boston                  25        37,500          7,510           35           52,570
Charlotte               26        39,000          5,437           54           58,698
Chicago                 21        31,500          4,038           45           36,360
Columbus                37        55,500          6,581           36           47,376
Dallas                  45        67,500          5,964           39           46,527
Denver                  16        24,000          5,479           57           62,472
Detroit                 18        27,000          4,045           57           46,113
Houston                 40        60,000          4,443           43           38,227
Kansas City             36        54,000          9,907           28           55,468
Los Angeles             26        39,000          3,424           55           37,675
Louisville              26        39,000          3,358           54           36,288
Miami                   16        24,000          1,453           50           14,550
Nashville               31        46,500          4,954           68           67,388
New Orleans             26        39,000          4,919           50           49,200
New York                19        28,500          3,689           35           25,830
Newark                   9        13,500            478           38            3,648
Philadelphia            31        46,500          5,427           39           42,315
Phoenix                 30        45,000          3,648           36           26,280
San Francisco           20        30,000          4,778           54           51,624
Seattle                 29        43,500          7,153           84          120,204
St. Paul                27        40,500          6,634           40           53,080
Tampa                   16        24,000          4,486           50           44,850
Washington              23        34,500          3,944           60           47,340
Totals                 627       940,500        117,481            –        1,140,139
Notes: Staff numbers are for the end of FY 2010. The cyclical inspections are
computed on a 5-year basis.
* Industry Operations investigators are referred to as IOIs in ATF.
Source: OIG calculations on ATF N-Spect data.




U.S. Department of Justice                                                          40
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX V: ATF RESPONSE TO DRAFT REPORT 





                                                                      u.s. Departme
                                                                      U.S.              orJustic
                                                                               rtmenn t of       e
                                                                                           Jusliee

                                                                      Bureau ofAlcohol, Tobacco
                                                                                        Tobacco,,
                                                                      Fucarms and Explo
                                                                      Fireamis    &plosives
                                                                                       sives
                                    APR 100 2013
                                            lOU
                                                                      Office of the Director
                                                                             oJthe

                                                                      Washjngton, DC 20226


             MEMORM'DUM
             MEMORANDUM TO:                tnspeetor Geoeral
                                           Inspector General

                               FROM:       Acting Director

                                                   Alcohol. Tobacco
                           SUBJECT: The Bureau of Alcohol,   Tobacco,, Firearms
                                                                         Firennns and
                                                                                   aad Explosives
                                    (A IT) Respons
                                    (ATF)            10 the Officc
                                           Respoosce to     Office of the                         Drnft
                                                                        !be Inspector General's Draft
                                           00 the Review of ATF's
                                    Report on                 A1'F'9 Federal
                                                                       FedemJ FiFireanlls Licen:;cc
                                                                                  reanns  Licensee (FFL)
                                                                                                    (11Ft)
                                    Inspection Program, Assignment
                                                         Assig.nmt.'Tl1 Number A A- 20 I0-004
                                                                                    2010-004


          The Bureau
               Bun:au of A Alcohol, Tobacco,
                                    TobacC(l, Fi rearms and Explosives
                                              Firearms                   (ATF)) has reviewed the Department
                                                             Explosives (ATF
             Justice. Office of
          of Justice,        uftbe                        (OIG) draft report on the a bove-cited
                                              Gcneral's (DIG)
                                the Inspector General's                                  oove-citcd subject. We
          appreciate tbe
                      the opportunity to provide comments on the tbe report and ititss recommendations
                                                                                       recommendations.. A ATF
                                                                                                             TF
          provide;; the follow
          provides      foJlnwing  fomlal respons
                               ing fom1al responsee 10      DIG' s recommendations:
                                                     to the OIG    re<:ommcndalions;

          Rccommend ll tion #1:
          Recommendation    # 1: Track whether
                                       whethtr anlin in- person follow -up compliance inspection is
                                                                follow-up
          conducted within 12 mo
                    withio 12 months
                                 nths of a telephone qualification inspection.
                                                                     inspection.

           ATF
           A       R e~s ponse:
             T F's Re    lIonse: ATF concurs
                                       e(locurs with this recommendation.
                                                            recommend:llion. ATF will im   implemen
                                                                                              plementt bus
                                                                                                        business
                                                                                                             iness
                    changl'S and develop N
          process changes                    N-Spect modifications to monitor
                                                                         monilor the timeliness of in-p  -person
                                                                                                            erson
          follow-up inspections.
                       insr.eetions. However, while ATF  ATf concurs in the recommendat
                                                                              recommendation ion , we believe that less
          rel iance should be placed on
           reliance                     00 telephone qualification inspections. Their value value is marginal and,
                                                                                                                 tIlJd,
          cons..-:quently,
          consequently, they are are.rarely employed; their uscuse is usually limited to those eircuIDstallces
                                                                                                circumstances where...,hen:
          th                              rcmote geographic area where A
          thee applicant is located in a remote                                TF inspection resources
                                                                             ATF               resnurces are scarce.
                                                                                                                scarce,
          In  tho~e rar
          Tn those  raree cases where
                                 where a qualification
                                          qt.Ullification inspection was condu
                                                                         eonductl'<l by telephone, we recogni
                                                                                cted by                    rccogoizze
          that an in-person compLiance                                      results in aa greater understanding of
                               compliance inspection within 12 months results
          FFL requir   ements and a hi
                requirements           higher
                                         gher lev
                                              levelel of overall compliance. Consequently, we will  \vitl prioritize and
                 ~ueh inspections
          tl1lck such
          track         in~pectiQns consistent with available resources.


          RC( UnllDendatioli #2:
          Recommendation       2: Reconsider how to meet its goal of performing FFL cyclical
          Complian ce inspections
          Compliance  inspcx:tion.~ on a
                                       .. 3J- and 5S- Y
                                                      year
                                                       CM basis, r(espectively.
                                                                   C$pectivdy ,

          ATIi"'~ Re
          ATF's   Rrsll!!l       An' concurs in part wi
                           m~ :: ATF
                     s ponse                          with        recommcrulalion. ATF
                                                          th this recommendation.    ATF has already exp
                                                                                                       explored
                                                                                                           lored
          available options to assist with meeting its cyclical
                                                           qdical inspections goals and will
                                                                                           will continue to seek
                                                                                                            seck
          Oul innovative
          out innovutive methods to  {o meet
                                        mcci those goals
                                                   goals.. As the OIG report emphasizcd
                                                                                 emphasized,, though, the primary
          impcdimcntlo
          impediment       KIT meeting cyclical inspection
                        to ATF                    in.spectioll resul
                                                                  esUlts      cbronic resource constraints outside
                                                                      ts from chronic
          of ATF's  control.l. As the report notes: "I
             ATF's eoruro                            ·'Inn our 2004 report, we noted
                                                                                 nnted that the inspection program




U.S. Department of Justice                                                                                                    41
Office of the Inspector General
Evaluation and Inspections Division
                                                            2

          In:lpedor Gencm!

          IVas undcrslaffed. Based on the analysis we did in this current review. we conclude lhal this is
          stilllhtl case." Shifting existing resource.~ 10 meetcyclicu[ inspection goals is nOlI! viable option.
          A~ the 010 report n:COgni7.tS, severa! faCUlts consLrain ATF's ability to reprioritizc resources to
          cyclical inspections. First, the law maodales that ATF conduct regular inspections of Federal
          Explosives licensee!\; these inspections must Ulke priority ol'er cyclical FFL compliance
          inspections. Second, in order to comply \\ith the recommendations afOiG's 2004 report, ATF
          has prioritized inspection of high-risk FFu above cyclical inspection goals. Third, in responSt'
          to recommendations found in 010'$ 2004 repon, ATF prioritizes in-person qualificatiou
          in~pections above cyclical compliance inspections. Fourtll. priOritization or qualification
          inspections is necessitated by the legal requirement that ATF must approve or deny the
          application of a firearttls licensee within 60 days of its receipt. 1g U.S.C. § 923(dX2). Pionlly,
          ATF must balMc/! ils commitments to these competing priorities in an environment 1"n whicll the
          population aflorLs coatinues to increase.

          RccommePlllition NJ: Develop aud implement II uniform cooing system that shows when
          a high·risk FFL inspection was pcrfomled.

          ATF'~ R e~pon se: ATF concurs w;!h this recommendation. Consistent with available tc!lUurccs;
          ATF will implement bu.slness proce.~s changes and develop N-Speci modifications to tmck aU
          inspections ofbigh-risk FFI..s. As tbe DIG report pointS ou4 NIT' s annual operating plan lays
          out both headquarters-mandated priorities and field divhlon di!K:retionary initiatives for the
          comins. year, High-mk, headquarters_mandated inspections ere identified in thc Qpe)"\lting plnn
          and tracked in N-Spect; discretionary field-d.ivision initiatives that alS() focus nn high-ri!!k
          licensees are not necesSlIriiy identified in the annual operating plan and therefore may not be
          trJcked as high-risk iosptttions in N-Spect. ATF acknowledges that its case management
          sy:;tem should be augmcnted and wil l make the m:ccSsary change.s 10 N-Spectlo track all high·
          risk rFL inspectioos.

          Recommcnda lion " 4: Determine and address the reasons, exclusive of any staf[shortagcs,.for
          delays of revocation cases during Division.CounSel review.

          ATF'. Resllonse: ATF concurs with this recommendation. ATF'is already taking steps to
          address reasons for any delays illth.e TevQClltion review process.

         Since the conclusion or the 010 audi t period 2 YI y= ago, ATF Counsel has created and
         implemented its own case mOOlagement system Which permits attomcy supervisors to more
         eff~tivcly manage the revocation review process. Coun~1 supervisors in the field are able to
         quickly access ihis information and take com:ctive actions.when nccessary.

         ATF continues to have reservations about the Inspector General 's inclusion of the data in Table 6
         ofthe draft report and the accompanying WlalYSls and conclusion. The data in Table 6 was
         gleaned from the Administr.ltive. Action Tracking (M T) chart. whicb is no! a Counsel created or




U.S. Department of Justice                                                                                         42
Office of the Inspector General
Evaluation and Inspections Division
                                                                     3

          fnspeCiorGenerul
          Inspector General

          co
          controlled
             ntrolled case tracking system. Most
                           tracking          Most important,
                                                   important. the data does not reflect the time a revocation
          mailer is under review by Counsel. The AA
          matter                                    AAT  T chart only indicates when the matter is initially
          sent to Counsel and the date
                                    dale on which CoulI!re
                                                  Cow1sel1has completed
                                                                 complt1l-d its preparation of the Notice of
                                                                                            urlhe
          Revocation. It does
          Revocation.     docs not
                                not account for even
                                                events         inlcrvt!ning
                                                     ts in the intervenin g period when a matter is not
                                                                                                    nOl under
                                                                                                        under
                      Coun~!.
          review by Counsel.

          A recent examination of Counsel
                                     COWlsci review-time in FY 2013
                                                               201) reflec
                                                                    reflectts that
                                                                              tbat in
                                                                                   in nearly two-thirds of the
                                                                                                           tile
          cases, Co unsel review bas been completed within 60 days. See
                 Counsel                                             Sec the fofollowing
                                                                                 llowing table which models
          Table 6 in the draft. repon:
                         draft report:

          Number of Da ys Revocat
                    Days  Re vocatio
                                  ionn s were under Counsel
                                                    C ounsel Review by Ranges
                                                                       Ranges
          IiY 2013
          FY2013

           Days to Review Recommendations for                            Cases                        ren:elllagc
                                                                                                      Percentage
                         Revocation
           I to 30 days                                                   18                               43
           31 to 60 days                                                  9                                21
           61 to 90 days                                                  6                                14
           91 to 120 days                                                 4                                10
           Over 120 days                                                   5                               12
           Total                                                          42                             100%


          The preparation of Notices 3Ild             Notices is also
                                         and Final Notices       aloo under
                                                                      uoder review by  by' Counsel with the purpose
          ofachleving
          of achieving a more consistent and                       product This will
                                             an<J efficient work product.            wilt aid the attorneys in the  thl.! ficld
                                                                                                                          field
          in reducing the time a revocation matter is " under review." Counsel is also instifuting instituting a system
                                                                                                                   system
          wherein managers will specifically trucktrack the time period that
                                                                           tbllt Division Counscltakcs
                                                                                            Counsel takes to prepare
          Noticl.!s of Revocation to ensure that,
          Notices                                                          circumSl~ccs, all Notices are prepared
                                               that , absent exceptional circumstances,
                  th e time frames set forth
          within the                    forth in the ATF Administrative ActionAetion Policy. Finally,
                                                                                                  Finally. ihe  r.::ccnt
                                                                                                            the recent
          rcorglUJizution of
          reorganization   ofthc  field counsel Structure
                              the field          structure to mirror A ATF
                                                                         TF's's.field
                                                                                field Opcr'olt ions,, and the
                                                                                      operations
          appointment of supervisory deputies it)n each region            serv<: to
                                                             regiot) will serve   10 enhanc
                                                                                     enhance e communication as 10        to
          both substantive and timeliness issues associated with        management
                                                                   wilh manag    ement of revocation review work
          flow.

          Again,
          Ag.un, thank you for the opportunity
                                   opponunity to provide the above comments on the subject report.




U.S. Department of Justice                                                                                                        43
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX VI: OIG ANALYSIS OF ATF RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Bureau of Alcohol, Tobacco, Firearms and Explosives for its
comment. ATF’s response is included in Appendix V to this report. The
OIG’s analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1: Track whether an in-person follow-up compliance
inspection is conducted within 12 months of a telephone qualification
inspection.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation and
stated that it will implement business process changes and develop
N-Spect modifications to monitor the timeliness of in-person follow-up
inspections. ATF also stated that it will prioritize and track such
inspections consistent with available resources.

      OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide documentation by July 31, 2013, of the
progress made on implementing the business process changes and
N-Spect modifications. Additionally, we request that ATF provide
documentation for any telephone qualification inspections conducted in
the year following implementation.

Recommendation 2: Reconsider how to meet its goal of performing FFL
cyclical compliance inspections on a 3- and 5-year basis, respectively.

       Status: Resolved.

       ATF Response: ATF partially concurred with this
recommendation and stated that it has already explored available options
to assist with meeting its cyclical inspections goals and that it will
continue to seek innovative methods to meet those goals. ATF also
stated that shifting existing resources to meet cyclical inspections goals
is not a viable option because ATF must balance its commitments to
competing priorities, such as the legal requirements for explosives
licensee inspections and firearms qualification inspections. ATF also
noted that the population of FFLs continues to increase as the OIG
stated in this report.



U.S. Department of Justice                                               44
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: ATF’s response is partially responsive to our
recommendation in that ATF states it will continue to seek innovative
methods to meet its cyclical compliance inspections goals. We agree that
competing legal requirements also place demands on ATF’s limited
resources. However, we believe it is important for ATF to ensure that
non-compliant FFLs do not go undetected by ATF for long periods of
time. Please provide a list by July 31, 2013, of available options ATF has
already explored or is exploring in seeking to meet its inspections goals.

Recommendation 3: Develop and implement a uniform coding system
that shows when a high-risk FFL inspection was performed.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation and
stated that consistent with available resources, it will implement
business process changes, augment its case management system, and
develop N-Spect modifications to track all inspections of high-risk FFLs.

      OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide documentation by July 31, 2013, or a
status on ATF’s business process changes and the modifications made to
N-Spect allowing ATF to track all high-risk FFL inspections.

Recommendation 4: Determine and address the reasons, exclusive of
any staff shortages, for delays of revocation cases during Division
Counsel review.

        Status: Resolved.

       ATF Response: ATF concurred with this recommendation and
stated that it is already taking steps to address reasons for any delays in
the revocation review process. ATF stated that Counsel has created and
implemented its own case management system that permits attorney
supervisors to more effectively manage the revocation review process.

      ATF expressed reservations regarding our inclusion of the data in
Table 6 of the report and the accompanying analysis and conclusion.
ATF stated that the data in Table 6 was gleaned from the Administrative
Action Tracking (AAT) system, which ATF noted is not a Counsel created
or controlled case tracking system and does not reflect the time a
revocation matter is under review by Counsel. 48 ATF’s response included

       48   The AAT system is controlled by ATF’s Enforcement Programs and Services.


U.S. Department of Justice                                                         45
Office of the Inspector General
Evaluation and Inspections Division
a recent examination of Counsel review time in FY 2013 that it stated
indicates the number of days revocations were under Division Counsel
review.

      According to ATF, Counsel is instituting a system wherein
managers will track how long Division Counsels take to prepare Notices
of Revocation to ensure that all notices are prepared within the time
frames set in ATF’s administrative action policy. ATF also stated that
Counsel was reviewing the preparation of notices and final notices with
the intention of producing a more consistent product that will expedite
Division Counsel revocation reviews. Finally, ATF stated that it recently
reorganized the Field Counsel structure to mirror ATF’s field operations
and the appointment of supervisory deputies in each region will serve to
enhance communication.

       OIG Analysis: We appreciate ATF’s examination of Division
Counsel recent review time; however, the data for FY 2013 is outside the
scope of this review, which was from FY 2004 through FY 2011. As a
result, we did not verify the accuracy of ATF’s FY 2013 data. For our
review, ATF provided information from the AAT tracking system, which it
had implemented to resolve a recommendation in the OIG’s 2004 review.
We understand that the Counsel’s new case tracking system did not
begin collecting the type of data we sought in our review until October
2012. Moreover, while Table 6 shows that the overall Division Counsel
review period is prolonged, we did not attribute the entire period of time
to actual Division Counsel review. We acknowledged that other factors
contribute to the length of the review period.

       ATF stated that the FY 2013 data from the new case management
system is more reflective of the Division Counsel review time since it
shows only the time that Division Counsels took to review revocation
cases. Nonetheless, even the FY 2013 data suggests that in 36 percent
of the cases (15 of 42), actual Division Counsel review took longer than
61 days. Moreover, in 22 percent of the cases (9 of 42), Division
Counsels required a minimum of 91 days for review, and 12 percent of
the cases (5 of 42) required over 120 days for review. As mentioned in
the report, ATF’s administrative action policy states that cases involving
revocation should be finalized within 120 days from the beginning of the
DIO’s review until issuance of a Notice of Revocation.

      During the Exit Conference for this review, ATF provided the OIG a
sample printout of a revocation case from the new case management
system. From that sample it appears that ATF will be able to identify
reasons for any delays that occur during the time a revocation is under
review by Division Counsels. Based on the actions taken by ATF to

U.S. Department of Justice                                              46
Office of the Inspector General
Evaluation and Inspections Division
develop and implement a case management system that can address the
reasons, exclusive of staff shortages, for delays of revocation cases
during Division Counsel review, this recommendation is considered
resolved. We request that ATF provide us with updates at 3-month
intervals over the next year, starting on July 31, 2013, to document
whether it has fully identified the causes of the delays in Division
Counsel review and provide a status report on the results of its efforts to
decrease those review times.




U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
